TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Fiscal Year 2013 Statutory Review
                             of Compliance With the
                           Freedom of Information Act



                                      September 20, 2013

                              Reference Number: 2013-30-109




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                     HIGHLIGHTS


FISCAL YEAR 2013 STATUTORY                              54 sampled I.R.C. § 6103 information requests.
REVIEW OF COMPLIANCE WITH THE                           When the sample results are projected to their
FREEDOM OF INFORMATION ACT                              respective populations, approximately
                                                        559 FOIA/Privacy Act and 13 I.R.C. § 6103
                                                        information requests may have had information
Highlights                                              erroneously withheld.
                                                        All FOIA/Privacy Act information requests
Final Report issued on                                  sampled were responded to timely. There are
September 20, 2013                                      no statutory time frames within which the IRS
                                                        must respond to I.R.C. § 6103 information
Highlights of Reference Number: 2013-30-109             requests. However, for 15 (27.8 percent) of the
to the Internal Revenue Service Director,               54 I.R.C. § 6103 information requests, the IRS
Privacy, Governmental Liaison and Disclosure.           took more than 30 calendar days to provide a
                                                        response.
IMPACT ON TAXPAYERS
                                                        Additionally, sensitive taxpayer information was
The IRS must ensure that the provisions of the          inadvertently disclosed in response to nine
Freedom of Information Act (FOIA), the Privacy          (16.4 percent) of the FOIA/Privacy Act and four
Act of 1974 (Privacy Act), and Internal Revenue         (7.4 percent) of the I.R.C. § 6103 information
Code (I.R.C.) Section (§) 6103 are followed.            requests reviewed.
Errors can violate taxpayer rights and result in
improper disclosures of tax information.                WHAT TIGTA RECOMMENDED
WHY TIGTA DID THE AUDIT                                 TIGTA recommended that the IRS: 1) require
                                                        disclosure specialists to adhere to the general
TIGTA is required to conduct periodic audits to         correspondence guidelines when processing
determine if the IRS properly denied written            I.R.C. § 6103 requests by specifying these time
requests for tax account information. TIGTA is          frames in the Disclosure section of the Internal
also required to include the results in one of its      Revenue Manual; and 2) emphasize the
Semiannual Reports to Congress. This is                 importance of disclosure laws and regulations
TIGTA’s fourteenth review of denials of FOIA,           with disclosure specialists and their managers.
Privacy Act, and I.R.C. § 6103 information
requests.                                               The IRS agreed with both recommendations and
                                                        plans to include time frames for processing
The overall objective of this review was to             I.R.C. § 6103 requests in the Internal Revenue
determine whether the IRS improperly withheld           Manual. The IRS plans to issue an interim
information requested in writing based on FOIA          guidance memorandum addressing this
exemption (b)(3), in conjunction with                   requirement before the end of the fiscal year. In
I.R.C. § 6103, and/or FOIA exemption (b)(7) or          addition, the IRS plans to develop a mandatory
by replying that responsive records were not            Disclosure Technical Update training session for
available or did not exist.                             all disclosure specialists. The IRS plans to
WHAT TIGTA FOUND                                        include in the training the types of inadvertent
                                                        disclosures found during this audit and also
TIGTA reviewed a statistically valid sample of          stress the need for a careful review of
55 FOIA/Privacy Act information requests from a         documents prior to their release to avoid
population of 3,415 FOIA/Privacy Act requests           unauthorized disclosures. The IRS plans to
and found nine (16.4 percent) in which taxpayer         require the disclosure specialists to review this
rights may have been violated because the IRS           training annually.
improperly withheld or failed to adequately
search for and provide information to requestors.
In addition, the IRS may have violated taxpayer
rights by failing to adequately search for and
provide information in three (5.6 percent) of
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 20, 2013


 MEMORANDUM FOR DIRECTOR, PRIVACY, GOVERNMENTAL LIAISON AND
                DISCLOSURE


 FROM:                        Michael E. McKenney
                              Acting Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Fiscal Year 2013 Statutory Review of Compliance
                              With the Freedom of Information Act (Audit # 201330006)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) improperly withheld information requested in writing based on the Freedom of
 Information Act (FOIA)1 exemption (b)(3), in conjunction with Internal Revenue Code (I.R.C.)
 Section (§) 6103,2 and/or FOIA exemption (b)(7) or by replying that responsive records were not
 available or did not exist.
 The Treasury Inspector General for Tax Administration (TIGTA) is required to conduct periodic
 audits to determine if the IRS properly denied written requests for tax account information. We
 are also required to include the results in one of our Semiannual Reports to Congress. This is our
 fourteenth review of denials of FOIA, Privacy Act of 1974,3 and I.R.C. § 6103 requests. The
 review is included in our Fiscal Year 2013 annual audit plan and addresses the major
 management challenge of Taxpayer Protection and Rights.
 Management’s complete response to the draft report is included as Appendix VI. Although the
 IRS agreed to all of TIGTA’s recommendations, IRS management’s response noted that many of
 the inadvertent disclosures did not include information that could be misused by the recipient.
 TIGTA’s position is that any unauthorized disclosure of information has the potential to be
 harmful to the taxpayer or the Government.



 1
   5 U.S.C.A. § 552 (2010).
 2
   I.R.C. § 6103 (2009).
 3
   5 U.S.C. § 552a (2010).
                           Fiscal Year 2013 Statutory Review of
                       Compliance With the Freedom of Information Act



Copies of this report are also being sent to the IRS managers affected by the report
recommendations. If you have any questions, please contact me or Nancy Nakamura, Assistant
Inspector General for Audit (Compliance and Enforcement Operations).




                                                                                             2
                                      Fiscal Year 2013 Statutory Review of
                                  Compliance With the Freedom of Information Act




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Internal Revenue Service Needs to Continue Its Efforts
          to Reduce Its Freedom of Information Act Backlog ..................................... Page 4
          Managerial Controls Need to Ensure That Disclosure Specialists
          Properly Respond to Freedom of Information Act, Privacy Act,
          and Internal Revenue Code Section 6103 Information Requests ................. Page 5
          Freedom of Information Act and Privacy Act Information Requests
          Were Responded to Timely by the Internal Revenue Service ...................... Page 7
          The Disclosure Office Does Not Have Timeliness Requirements
          for Responding to Internal Revenue Code Section 6103
          Information Requests .................................................................................... Page 9
                    Recommendation 1:........................................................ Page 9

          Disclosure Specialists May Be Inadvertently Disclosing
          Taxpayer Information ................................................................................... Page 10
                    Recommendation 2:........................................................ Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 15
          Appendix III – Report Distribution List ....................................................... Page 16
          Appendix IV – Outcome Measures............................................................... Page 17
          Appendix V – Prior Treasury Inspector General for Tax
          Administration Freedom of Information Act Reports .................................. Page 20
          Appendix VI – Management’s Response to the Draft Report ...................... Page 21
             Fiscal Year 2013 Statutory Review of
         Compliance With the Freedom of Information Act




                 Abbreviations

AFOIA      Automated Freedom of Information Act
DQMS       Disclosure Quality Measurement System
FOIA       Freedom of Information Act
I.R.C.     Internal Revenue Code
IRS        Internal Revenue Service
TIGTA      Treasury Inspector General for Tax Administration
                                 Fiscal Year 2013 Statutory Review of
                             Compliance With the Freedom of Information Act




                                            Background

Statutory requirements
The Internal Revenue Service (IRS) Restructuring and Reform Act of 19981 requires the
Treasury Inspector General for Tax Administration (TIGTA) to:
        conduct periodic audits of a statistically valid sample of the total number of
        determinations made by the Internal Revenue Service to deny written requests to
        disclose information to taxpayers on the basis of section 61032 of this title3 or section
        552(b)(7) of title 5, United States Code.4

The three primary laws that govern the types of requests for information reviewed in this audit
are:
The Freedom of Information Act (FOIA) requires Federal Government agencies to make
records available to the public upon request, unless specifically exempted. Information that is
“specifically exempted from disclosure by statute” is one of
the exemptions. Internal Revenue Code (I.R.C.)                      The FOIA requires agencies
Section (§) 6103 is an example of such a statute; it protects         to make records of the
the confidentiality of tax returns and return information.             Federal Government
Records or information compiled for law enforcement                 available to the public upon
                                                                    request, unless specifically
purposes are also exempt from disclosure under the FOIA.
                                                                                       exempted.
                                               5
The Privacy Act of 1974 (Privacy Act) states that no
Federal Government agency shall disclose any record that is
contained in a system of records by any means of communication to any person, or to another
agency, except pursuant to a written request by, or with the prior written consent of, the
individual to whom the record pertains. The Privacy Act mandates that each agency have in
place an administrative and physical security system to prevent the unauthorized release of
personal records.




1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.). The requirements for
this audit are in § 1102 (d)(3)(A) of the statute.
2
  I.R.C. § 6103 (2009).
3
  26 U.S.C. (2009).
4
  5 U.S.C.A. § 552 (2010).
5
  5 U.S.C. § 552a (2010).
                                                                                                          Page 1
                             Fiscal Year 2013 Statutory Review of
                         Compliance With the Freedom of Information Act



I.R.C. § 6103 protects the confidentiality of taxpayers’ returns and return information.
However, it does allow the taxpayer, or a person designated by the taxpayer, to request and
receive the taxpayer’s specific documents and information.

IRS processing and reporting of FOIA requests
Effective June 2011, the Office of the Deputy Commissioner for Operations Support (through its
Office of Privacy, Governmental Liaison and Disclosure) became responsible for ensuring the
IRS’s timely compliance with the FOIA, the Privacy Act, and I.R.C. § 6103. The Headquarters
Disclosure Office within the Office of Privacy, Governmental Liaison and Disclosure, sets IRS
policy and issues instructions, guidelines, and procedures to the various IRS functions to ensure
compliance with the disclosure statutes.
The Office of Disclosure processes FOIA/Privacy Act and I.R.C. § 6103 information requests
received by the IRS. In the U.S. Department of the Treasury Freedom of Information Act Annual
Report to the Attorney General for Fiscal Year 2012, the IRS reported that a total of 12,198
FOIA/Privacy Act information requests were processed. This is consistent with the
12,196 FOIA/Privacy Act information requests processed on the Automated Freedom of
Information Act (AFOIA) system during Fiscal Year 2012.
In addition, the report stated that the IRS denied or partially denied information to requestors in
2,986 (24 percent) of the 12,198 FOIA/Privacy Act information requests processed in Fiscal
Year 2012. This is an increase from the 20 percent reported in Fiscal Year 2011. The report
further stated that the IRS advised requestors that there were no records responsive to requests in
793 (6.5 percent) of the 12,198 FOIA/Privacy Act information requests. This is a decrease from
the 8.5 percent reported in the prior fiscal year. The remaining information requests were either
granted in full or closed for miscellaneous reasons, such as the request was improper or had been
previously granted.

Audit limitations and standards
Individual IRS disclosure offices or other IRS offices having custody of taxpayer records also
processed written requests for information made under I.R.C. § 6103. While the IRS is not
required to track all information requests made under I.R.C. § 6103, it has elected to do so for
requests received by its Headquarters Disclosure Office. In addition, the Headquarters
Disclosure Office used the AFOIA system to track information requests made under the
FOIA/Privacy Act for Fiscal Year 2012. Requests made under I.R.C. § 6103 that were received
and processed by IRS offices other than the Headquarters Disclosure Office are not controlled on
the AFOIA system or otherwise inventoried. Consequently, the volume of these requests is not
known. As a result, we can statistically sample only the I.R.C. § 6103 information requests
processed directly by the IRS Headquarters Disclosure Office and tracked on the AFOIA system.
Beginning in February 2006, the responsibility for processing some information requests for
I.R.C. § 6103 tax compliance checks and transcripts was transferred from the Small
                                                                                            Page 2
                             Fiscal Year 2013 Statutory Review of
                         Compliance With the Freedom of Information Act



Business/Self-Employed Division’s Office of Disclosure to the Wage and Investment Division’s
Return and Income Verification Services Units. The Wage and Investment Division does not
record the I.R.C. § 6103 information requests on the AFOIA system. We reviewed only those
requests processed by the Office of Disclosure that were denied, partially denied, or had no
responsive records during the period of October 1, 2011, through September 30, 2012.
This review was performed with information obtained from the Headquarters Disclosure Office
within the Office of Privacy, Governmental Liaison and Disclosure, in Washington, D.C., during
the period December 2012 through June 2013. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 3
                                  Fiscal Year 2013 Statutory Review of
                              Compliance With the Freedom of Information Act




                                       Results of Review

The Internal Revenue Service Needs to Continue Its Efforts to Reduce
Its Freedom of Information Act Backlog
The IRS relies on its disclosure personnel to ensure that information requests received under the
FOIA are handled timely and in accordance with laws and regulations. The IRS supports the
FOIA program with a broad policy statement and the Internal Revenue Manual6 that provides
guidance nationwide to disclosure personnel. The policy statement, among other things, affirms
the IRS’s commitment to full compliance with the FOIA and administering it in a manner consistent
with “the fundamental values held by our society, including public accountability, safeguarding
national security, enhancing the effectiveness of law enforcement agencies and the decision-making
processes, protecting sensitive business information, and protecting personal privacy.”
Besides providing assurances that FOIA information requests are handled timely and in
accordance with laws and regulations, the IRS needs to continue its efforts to reduce inventory
backlog under the Governmentwide Improving Agency Disclosure of Information initiative. The
IRS has taken positive steps to effectively manage its FOIA backlog. For example, the
Headquarters and field office managers review weekly over-age reports and monthly inventory
monitoring reports, both of which include FOIA/Privacy Act and I.R.C. § 6103 information
request inventory and backlog information. Disclosure management uses these reports to make
informed decisions to better manage their information request inventory.
National Disclosure Office statistics show that the IRS has continued to reduce its backlog of
FOIA information requests in Fiscal Years 2008 through 2012. In Fiscal Year 2012, the IRS
hired 21 new disclosure specialists in addition to the 24 new hires in Fiscal Year 2011. As a
result, there was a 19 percent decrease in the number of information requests that were
backlogged at the end of Fiscal Year 2012 (118 requests) compared to the number of backlogged
requests at the end of Fiscal Year 2011 (146 requests). Reducing the number of backlogged
cases is particularly important because it addresses the primary reason response time periods are
not being met under the FOIA.
Figure 1 shows the inventory of backlogged FOIA information requests from Fiscal Year 2008 to
Fiscal Year 2013, through June 3, 2013.




6
 Contains the policies, procedures, instructions, guidelines, and delegations of authority which direct the operation
and administration of the IRS. Topics include tax administration, personnel and office management, and others.
                                                                                                              Page 4
                                 Fiscal Year 2013 Statutory Review of
                             Compliance With the Freedom of Information Act



             Figure 1: Inventory of Backlogged FOIA Information Requests




          Source: Unaudited data provided by the IRS Headquarters Disclosure Office, U.S. Department
          of the Treasury Freedom of Information Act Annual Report to the Attorney General for
          Fiscal Year 2012, and TIGTA audit reports issued in Fiscal Years 2008–2012.

The IRS’s Fiscal Year 2013 backlog goal7 is to reduce its September 30, 2012, backlog of
118 information requests by 10 percent to 106 requests. As of June 3, 2013, there were 122
backlogged information requests. This represents a 3 percent increase in backlogged requests
since the beginning of Fiscal Year 2013. Currently, the backlog is 16 information requests
(15 percent) over the Fiscal Year 2013 goal of 106. The IRS is striving to meet its reduction in
backlog goal by the end of this fiscal year.

Managerial Controls Need to Ensure That Disclosure Specialists
Properly Respond to Freedom of Information Act, Privacy Act, and
Internal Revenue Code Section 6103 Information Requests
The IRS was not consistent in its service to individuals who requested information under the
FOIA/Privacy Act based on the statistically valid sample of information requests reviewed.
Specifically, disclosure specialists improperly withheld or failed to adequately search for and


7
  The Governmentwide backlog goal for the IRS is determined by the Department of Justice target of a 10 percent
reduction in the past fiscal year’s backlog.
                                                                                                          Page 5
                                   Fiscal Year 2013 Statutory Review of
                               Compliance With the Freedom of Information Act



provide information on nine (16.4 percent)8 of the 55 FOIA/Privacy Act information requests
reviewed. When the sample results are projected to the population of 3,415 FOIA/Privacy Act
information requests closed during the period October 1, 2011, through September 30, 2012, the
results indicate that approximately 559 FOIA/Privacy Act requests may have had information
erroneously withheld.9 We expect the number of requests that had information erroneously
withheld to range from 265 to 984 requests.
In addition, disclosure specialists failed to adequately search for and provide information on
three (5.6 percent) of the 54 I.R.C. § 6103 information requests reviewed. When the sample
results are projected to our population of 2,615 I.R.C. § 6103 information requests closed during
the period October 1, 2011, through September 30, 2012, the results indicate that approximately
13 I.R.C. § 6103 requests may have had information erroneously withheld.10 We expect the
number of requests that had information erroneously withheld to range from three to
38 requests.11 Figure 2 shows the audit results for Fiscal Years 2008 through 2012.
                             Figure 2: Improper FOIA/Privacy Act and
                         I.R.C. § 6103 Information Request Withholdings




         Source: TIGTA audit reports issued in Fiscal Years 2008–2012 and audit tests conducted during
         this review. Percentages were rounded to the closest tenth.



8
  For purposes of reporting, we rounded the actual error rate used in the outcome measure calculations in
Appendix IV from 16.36 percent to 16.4 percent.
9
  The projection is based on a 95 percent confidence level, a precision rate of ± 5 percent, and an error rate of
16.4 percent.
10
   The projection is based on a 95 percent confidence level, precision rate of ± 5 percent, and an error rate of
0.5 percent.
11
   See Appendix IV for an explanation of the projections.
                                                                                                                Page 6
                              Fiscal Year 2013 Statutory Review of
                          Compliance With the Freedom of Information Act



The IRS relies on its disclosure personnel to ensure that information requests under the
FOIA/Privacy Act and I.R.C. § 6103 are handled in accordance with laws and regulations. The
Internal Revenue Manual provides guidance to disclosure personnel nationwide. Throughout the
Internal Revenue Manual, personnel are instructed to properly document in case files all aspects
of their work during the receipt, control, research, response, and closing phases of the requests.
This documentation is important because it provides the principal evidence that procedures were
followed, as well as the foundation for other control processes such as management reviews.
During Fiscal Year 2009, the Office of Disclosure implemented a Disclosure Quality
Measurement System (DQMS) which was designed to institutionalize a real-time national
process for monitoring the quality of all Office of Disclosure work. According to IRS
management, the DQMS was staffed by temporarily promoting Senior Disclosure Specialists
into the review positions on a rotational basis. During Fiscal Years 2010 through 2012, the
implementation of the AFOIA system took a significant investment of staff time for training and
related administrative support. This resulted in sporadic operation of the DQMS program and an
insufficient number of reviews to provide a valid analysis of statistical information. As a result,
Office of Disclosure management made the decision to temporarily discontinue the DQMS as a
quality review for casework.
Office of Disclosure managers are responsible for the quality of work done locally by the
personnel they manage. By reviewing ongoing work, managers attempted to identify and correct
potential problems before they may have an adverse effect on taxpayers. Though a managerial
review of selected casework is still required, this is not a sufficient substitute for the DQMS. We
were advised that the DQMS process was resumed in Fiscal Year 2013.
The influx of new employees may be a contributing factor to the increased instances of taxpayer
information being either erroneously withheld or not provided in error. The Office of Disclosure
stated that it hired 21 disclosure specialists in Fiscal Year 2011 and an additional 24 disclosure
specialists in Fiscal Year 2012. During Fiscal Year 2012, the 45 new employees were either in
formal training or going through On-The-Job-Training. The new employees account for
approximately 45 percent of the current staff of 101 disclosure specialists. In addition, the more
experienced disclosure specialists had collateral duties, such as coaching, and were not
processing information requests full time.

Freedom of Information Act and Privacy Act Information Requests
Were Responded to Timely by the Internal Revenue Service
None of the 55 Fiscal Year 2012 FOIA/Privacy Act information requests in our sample had an
untimely response. The FOIA requires Federal Government agencies to respond within
20 business days of the receipt of an information request or, if the 20 business days are not
sufficient, to notify the requestor of the reason why the request cannot or will not be filled. If
they are unable to respond to an information request within the time limit, Federal Government

                                                                                             Page 7
                              Fiscal Year 2013 Statutory Review of
                          Compliance With the Freedom of Information Act



agencies are required to immediately notify the requestor of this fact, of the reasons why they are
unable to respond, and of the requestor’s right to appeal.
The due date for a FOIA information request is revised when the IRS sends a letter to the
requestor exercising its right for an automatic 10-day extension and/or requesting a voluntary
extension in excess of the initial statutory 20-day period. The requestor must agree to the
voluntary extension, and the IRS must notify the requestor of its ability to respond by the end of
the extension period. A FOIA information request is considered untimely when the IRS
responds to the requestor after the due date. For Privacy Act information requests, the IRS must
respond within 30 calendar days of the taxpayer’s request.
Since Fiscal Year 2001, the IRS has made significant improvement in the timeliness of responses
to FOIA/Privacy Act information requests. Our audits, including this review, indicate that the
percentages of untimely responses ranged from zero to 43.5 percent. The results of our last three
audits found that the IRS has remained relatively consistent in providing responses to requestors
within the statutory time periods. Figure 3 shows the percentages of untimely information
requests we have reported since Fiscal Year 2008.
           Figure 3: Comparison of Untimely FOIA/Privacy Act Responses




              Source: TIGTA audit reports issued in Fiscal Years 2009–2012 and audit tests
              conducted during this review. Percentages were rounded to the closest tenth.




                                                                                             Page 8
                              Fiscal Year 2013 Statutory Review of
                          Compliance With the Freedom of Information Act



The Disclosure Office Does Not Have Timeliness Requirements for
Responding to Internal Revenue Code Section 6103 Information
Requests
Although there are statutory time frames in which the IRS must respond to FOIA information
requests, there are no such requirements for responding to I.R.C. § 6103 information
requests. From a review of a sample of 54 I.R.C. § 6103 information requests, we identified
15 (27.8 percent) with response dates that were more than 30 calendar days. These information
requests included, for example, requests for personnel records, copies of tax notices and tax
returns, account transcripts, and copies of the examination files of audited tax returns. Of the
54 information requests sampled:
      Thirty-nine (72.2 percent) had responses within 30 calendar days.
      Nine (16.7 percent) had responses within 31 to 60 calendar days.
      Six (11.1 percent) had responses more than 60 calendar days.
Privacy Act information requests fall under the IRS’s general correspondence guidelines of
responding within 30 calendar days of the request. If 30 calendar days are not sufficient, the IRS
guidelines require that the requestor be notified that the processing of the request will be delayed
and provide a revised response date. I.R.C. § 6103 information requests should also fall under
the same general correspondence guidelines.
Although the Disclosure section of the Internal Revenue Manual does not specifically address
timeliness for processing I.R.C. § 6103 information requests, all IRS divisions and functions that
respond to taxpayer correspondence are subject to the guidance published in the Taxpayer
Contact section of Internal Revenue Manual. Office of Disclosure officials stated that disclosure
specialists do not currently follow these guidelines for I.R.C. § 6103 information requests in
order to maintain flexibility when working other higher priority work, such as FOIA and Privacy
Act information requests. However, disclosure specialists are instructed to notify the requestor if
the response is going to be delayed.
Only one request case file of the 15 untimely responses in our sample contained sufficient
evidence to indicate that the requestor was advised of any delay in the processing of the
I.R.C. § 6103 request. To ensure that requestors are responded to in a timely manner or notified
of any processing delays, the Office of Disclosure should adhere to the general correspondence
guidelines when processing I.R.C. § 6103 information requests.

Recommendation
Recommendation 1: The Director, Office of Privacy, Governmental Liaison and Disclosure
should require disclosure specialists to adhere to the general correspondence guidelines when

                                                                                             Page 9
                             Fiscal Year 2013 Statutory Review of
                         Compliance With the Freedom of Information Act



processing I.R.C. § 6103 requests by specifying these time frames in the Disclosure section of
the Internal Revenue Manual.
       Management’s Response: The IRS agreed with this recommendation. The Internal
       Revenue Manual will be revised to include a specific time frame for processing
       I.R.C. § 6103 requests. An interim guidance memorandum that addresses this
       requirement will be issued before the end of the fiscal year.

Disclosure Specialists May Be Inadvertently Disclosing Taxpayer
Information
A review of a sample of 55 FOIA/Privacy Act and 54 I.R.C. § 6103 information requests
identified nine (16.4 percent) FOIA/Privacy Act and four (7.4 percent) I.R.C. § 6103 requests
where disclosure specialists inadvertently disclosed sensitive taxpayer information or other
information deemed “official use only” in their responses. These disclosures are summarized as
follows with some requests having more than one issue.
      Six occurrences which released Personally Identifiable Information that was outside the
       scope of what the requestor’s Power of Attorney or designated representative was
       authorized to receive.
      Five occurrences which released Personally Identifiable Information of third-party
       taxpayers.
      Four occurrences which released the taxpayer’s Discriminant Function Score. This is a
       numerical score given to tax returns based upon a computerized classification process
       that by IRS policy is for “official use only” and not to be disclosed.
      Three occurrences which treated taxpayer-related information (such as revenue agent
       reports, bank records, etc.) inconsistently by redacting information on some pages, and
       then releasing it on others.
      One occurrence which released IRS transcripts for an incorrect Social Security Number.
Office of Disclosure officials stated that these inadvertent disclosures could have resulted from
several contributing factors, such as:
      A lack of independent review through the implementation of the DQMS quality review
       process.
      An oversight by the caseworker when completing the review of responsive records.
      An oversight by management in the review of the case files.
The timely identification and reporting of all inadvertent unauthorized disclosures of sensitive
information is critical to quickly initiate any needed investigation or recovery of information. A
                                                                                           Page 10
                             Fiscal Year 2013 Statutory Review of
                         Compliance With the Freedom of Information Act



prompt report decreases the possibility that the information may be compromised and used to
perpetuate identity theft or other forms of harm to taxpayers or the Government. Disclosure
officials addressed the disclosures with the disclosure specialists and their managers who
processed and reviewed the requests we identified. Disclosure officials responded that the
appropriate actions were taken to report all of the inadvertent disclosures once we notified them
of our concerns.

Recommendation
Recommendation 2: The Director, Office of Privacy, Governmental Liaison and Disclosure,
should emphasize the importance of the disclosure laws and regulations with all disclosure
specialists and their managers, and ensure that the procedures for reporting inadvertent
disclosures are periodically reviewed.
       Management’s Response: The IRS agreed with this recommendation. A mandatory
       Disclosure Technical Update training session will be developed for all disclosure
       specialists. The training will include the types of inadvertent disclosures found during
       this audit and stress the need for a careful review of documents prior to their release to
       avoid unauthorized disclosures. The training will also include a review of the procedures
       for reporting any such disclosures. In addition, the training session will be recorded and
       Disclosure managers will be required to certify on an annual basis that their employees
       have reviewed the training. The training will also be made a permanent part of the
       orientation training for new Disclosure employees.




                                                                                          Page 11
                                 Fiscal Year 2013 Statutory Review of
                             Compliance With the Freedom of Information Act



                                                                                     Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS improperly withheld
information requested in writing based on FOIA1 exemption (b)(3), in conjunction with
I.R.C. § 6103,2 and/or FOIA exemption (b)(7) or by replying that responsive records were not
available or did not exist. To accomplish this objective, we:
I.      Determined the applicable policies, procedures, and controls that were in place to ensure
        compliance with the FOIA when denying information, such as:
        A. Policies, operating procedures, systems, documents/files, risks, laws, and regulations
           related to the receipt, disposition, and resolution or denials of requests for information
           under the FOIA.
        B. Specific management controls and systems that were in place to ensure the timely and
           proper receipt, disposition, and resolution or denials of requests for information under
           the FOIA.
II.     Determined whether the IRS properly adhered to statutory FOIA and Privacy Act3
        requirements, as well as procedural requirements.
        A. Obtained an extract from the AFOIA system for the period October 1, 2011, through
           September 30, 2012, and identified 3,415 FOIA/Privacy Act information requests
           closed as denied or partially denied based on FOIA exemption (b)(3), in conjunction
           with I.R.C. § 6103, or on FOIA exemption (b)(7), or where the IRS replied that
           responsive records were not available or did not exist. We validated the data extract
           by performing specialized queries. We determined that the data were sufficiently
           reliable for the purposes of this report.
        B. Designed a statistically valid sample based on a confidence level of 90 percent, an
           expected error rate of 5.33 percent for FOIA/Privacy Act information requests, with
           an estimated precision of ± 5 percent. Based on these parameters, a statistically valid
           sample size was 55 information requests. This sampling methodology was chosen so
           that we could project the number of requests with improper withholdings to the
           universe of information requests that were partially or fully denied based on FOIA



1
  5 U.S.C.A. § 552 (2010).
2
  I.R.C. § 6103 (2009).
3
  5 U.S.C. § 552a (2010).
                                                                                            Page 12
                             Fiscal Year 2013 Statutory Review of
                         Compliance With the Freedom of Information Act



          exemption (b)(3), in conjunction with I.R.C. § 6103, and/or FOIA exemption (b)(7),
          or for which requestors were told records were not available.
       C. Reviewed the 55 sampled FOIA/Privacy Act information requests and determined
          whether the decision to withhold information was appropriate, the record search was
          adequate, and the determination was made in a timely manner.
       D. Projected the number of requests where information was withheld from the requestor
          in the range of 265 to 984 (7.76 percent to 28.8 percent) for FOIA/Privacy Act
          information requests that were partially or fully denied based on FOIA exemption
          (b)(3), in conjunction with I.R.C. § 6103, and/or FOIA exemption (b)(7), or for which
          requestors were told records were not available. The projection was made using the
          Exact Binomial method for attribute sampling, with a 95 percent confidence level and
          an actual error rate of 16.36 percent. The accuracy of our projection was reviewed
          and confirmed by our contracted statistician.
       E. Discussed all exceptions with Office of Disclosure officials.
       F. Reviewed the U.S. Department of the Treasury Freedom of Information Act Annual
          Report to the Attorney General for Fiscal 2012 showing various statistics for
          FOIA/Privacy Act information requests, including appeals and closures. This
          information was not independently verified because the accuracy of these statistics
          did not affect the accomplishment of our audit objective.
III.   Determined whether the IRS Headquarters Disclosure Office is adhering to legal
       requirements when denying written information requests received under I.R.C. § 6103.
       A. Obtained an extract from the AFOIA system for the period October 1, 2011, through
          September 30, 2012, and identified 2,615 I.R.C. §§ 6103(c) and (e) information
          requests that were denied, partially denied, or had no disposition code.
       B. Designed a statistically valid sample based on a confidence level of 90 percent, an
          expected error rate of 5.36 percent, and an estimated precision of ± 5 percent. Based
          on these parameters, the size of the statistically valid sample was 55 information
          requests. This sampling methodology was chosen because it would allow us to
          project the number of requests with improper withholdings to the universe of closed
          I.R.C. §§ 6103(c) and (e) information requests that were partially or fully denied or
          for which the IRS replied that responsive records were not available or did not exist.
          One information request in our sample was misclassified as an I.R.C. §§ 6103(c) and
          (e) request when it actually was an I.R.C. § 6103(d) request, which did not meet our
          criteria. As a result, removing the misclassified request reduced our sample to
          54 information requests.
       C. Selected a statistically valid sample of 600 of the 2,615 I.R.C. §§ 6103(c) and (e)
          closed information requests. We selected a larger sample size to account for the

                                                                                          Page 13
                             Fiscal Year 2013 Statutory Review of
                         Compliance With the Freedom of Information Act



           possibility that some requests would not meet our objective criteria. We reviewed
           each request received to identify the necessary 54 information requests for our sample
           that included instances in which information was partially or fully denied or in which
           the IRS replied that responsive records were not available or did not exist.
       D. Reviewed the 54 information requests identified and determined whether the decision
          to withhold the information based on I.R.C. § 6103 was appropriate, and if the
          determination was made in a timely manner.
       E. Discussed all exceptions with Office of Disclosure officials.
       F. Projected the number of requests where information was withheld from the requestor
          in the range of three to 38 (0.103 percent to 1.454 percent) for information requests
          that were partially or fully denied information or told that records were not available.
          The projection was made using the Exact Binomial method for attribute sampling,
          with a 95 percent confidence level and an actual error rate of 0.5 percent. To project
          the number of taxpayers affected, we projected the number of errors to the original
          600 requests sampled from the population of 2,615 I.R.C. § 6103 information
          requests. The accuracy of our projection was reviewed and confirmed by our
          contracted statistician.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS policies, operating procedures,
systems, laws, and regulations related to the receipt, disposition, and resolution or denials of
requests for information under the FOIA to evaluate whether the IRS improperly withheld tax
account information requested in writing. We evaluated these controls by reviewing source
materials, interviewing management, and reviewing statistically valid samples of closed
FOIA/Privacy Act and I.R.C. § 6103 information requests.




                                                                                           Page 14
                           Fiscal Year 2013 Statutory Review of
                       Compliance With the Freedom of Information Act



                                                                            Appendix II

                Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Bryce Kisler, Director
Tina M. Parmer, Audit Manager
Gail C. Schuljan, Senior Auditor
Michele Jahn, Auditor




                                                                                    Page 15
                           Fiscal Year 2013 Statutory Review of
                       Compliance With the Freedom of Information Act



                                                                 Appendix III

                         Report Distribution List

Principal Deputy Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Deputy Commissioner, Operations Support OS




                                                                        Page 16
                                   Fiscal Year 2013 Statutory Review of
                               Compliance With the Freedom of Information Act



                                                                                   Appendix IV

                                   Outcome Measures

This appendix presents detailed information on the measurable impact that the results of our
audit will have on tax administration. These benefits will be incorporated into our Semiannual
Report to Congress.

Type and Value of Outcome Measure:
     Taxpayer Rights and Entitlements – Potential; 559 responses to FOIA1/Privacy Act2
      information requests for which information may have been improperly withheld or the IRS
      failed to adequately search for and provide during the 12-month period October 1, 2011,
      through September 30, 2012 (see page 5).

Methodology Used to Measure the Reported Benefit:
     We reviewed a statistically valid sample of 55 requests from a population
      3,415 FOIA/Privacy Act information requests closed nationally during the period
      October 1, 2011, through September 30, 2012, as either a:
      1) Full or partial denial with either FOIA exemption (b)(3), in conjunction with
         I.R.C. § 6103, and/or FOIA exemption (b)(7) cited as one of the reasons for withholding
         information.
      2) Request for which the IRS replied that responsive records were not available or did not
         exist.
     We identified nine requests where disclosure specialists improperly withheld or failed to
      adequately search for and provide the requested information.
Based on our sample error rate of 16.36 percent (9/55) and a confidence level of 95 percent, we
estimated the number of requestors erroneously denied information to be 559 [3,415 x
16.36 percent], with a range of 265 to 984. We arrived at the estimate by multiplying the
number of requests closed as either condition 1) or 2) listed in the prior paragraph by the
percentage of erroneously denied responses identified in our sample. The projection was made
using the Exact Binomial method for attribute sampling, with a confidence level of 95 percent
and an actual error rate of 16.36 percent. As a result, the actual precision factors were
7.76 percent and 28.80 percent.

1
    5 U.S.C.A. § 552 (2010).
2
    5 U.S.C. § 552a (2010).
                                                                                            Page 17
                                   Fiscal Year 2013 Statutory Review of
                               Compliance With the Freedom of Information Act



Type and Value of Outcome Measure:
   Taxpayer Rights and Entitlements – Potential; 13 responses to I.R.C. § 61033 information
    requests for which the IRS failed to adequately search for and provide information during the
    12-month period October 1, 2011, through September 30, 2012 (see page 5).

Methodology Used to Measure the Reported Benefit:
   We reviewed a statistically valid sample of 600 requests, of which 54 satisfied our criteria
    and were not misclassified, from a population 2,615 I.R.C. § 6103 information requests
    closed nationally during the period October 1, 2011, through September 30, 2012, as either a
    full or partial denial, or a request for which the IRS replied that responsive records were not
    available or did not exist.
   We identified three requests out of the 54 where disclosure specialists failed to adequately
    search for and provide the requested information.
We used our sample error rate of 5.6 percent (3/54) and a confidence level of 95 percent to
calculate our projections. The error rate for the original statistically valid sample of 600 requests
is 0.5 percent (3/600). We then applied that error rate to the entire population and estimated the
number of requestors erroneously denied information to be 13 [2,615 x 0.5 percent], with a range
of three to 38. We arrived at the estimate by multiplying the number of requests closed as listed
in the prior paragraph by the percentage of improperly denied responses identified in our sample.
The projection was made using the Exact Binomial method for attribute sampling, with a
confidence level of 95 percent and an actual error rate of 0.5 percent. As a result, the upper and
lower precision factors were 0.103 percent and 1.454 percent.

Type and Value of Outcome Measure:
   Taxpayer Privacy and Security – Potential; 13 responses had sensitive taxpayer information
    inadvertently disclosed in response to either a FOIA/Privacy Act or I.R.C. § 6103
    information request (see page 10).

Methodology Used to Measure the Reported Benefit:
While conducting our review, we observed4 that disclosure specialists inadvertently disclosed
sensitive taxpayer information in response to nine (16.36 percent) of the FOIA/Privacy Act and
four (7.4 percent) of the I.R.C. § 6103 information requests in our samples. These disclosures



3
  I.R.C. § 6103 (2009).
4
  The scope of this audit focused on information being withheld, not on the information that was inadvertently
released to the taxpayer. Therefore, due to the nature of the sample selected, the results of this finding cannot be
projected to the population.
                                                                                                              Page 18
                            Fiscal Year 2013 Statutory Review of
                        Compliance With the Freedom of Information Act



included Personally Identifiable Information such as Social Security Numbers, names, tax
account transcripts, and tax return information.




                                                                                       Page 19
                           Fiscal Year 2013 Statutory Review of
                       Compliance With the Freedom of Information Act



                                                                            Appendix V

     Prior Treasury Inspector General for Tax
 Administration Freedom of Information Act Reports

TIGTA, Ref. No. 2000-10-116, Taxpayers Should Be Provided Timely Service When Appealing
Denied Requests Under the Freedom of Information Act (Aug. 2000).
TIGTA, Ref. No. 2001-10-112, The Internal Revenue Service Should Continue Taking Action to
Improve Compliance With the Freedom of Information Act and Related Procedures (Jul. 2001).
TIGTA, Ref. No. 2002-10-093, Actions Should Continue to Be Taken to Improve Compliance
With the Freedom of Information Act and Related Procedures (May 2002).
TIGTA, Ref. No. 2003-10-164, Opportunity for Improvement Exists for Compliance With the
Freedom of Information Act and Related Procedures (Aug. 2003).
TIGTA, Ref. No. 2004-40-064, Improvements Are Needed to Ensure Compliance With the
Freedom of Information Act (Mar. 2004).
TIGTA, Ref. No. 2005-10-089, Some Improvements Have Been Made to Better Comply With
Freedom of Information Act Requirements (May 2005).
TIGTA, Ref. No. 2006-10-129, Compliance With Freedom of Information Act Requirements Has
Increased (Aug. 2006).
TIGTA, Ref. No. 2007-10-133, The Office of Disclosure Can Improve Compliance With the
Freedom of Information Act Requirements (Aug. 2007).
TIGTA, Ref. No. 2008-30-164, The Office of Disclosure Continued to Improve Compliance With
the Freedom of Information Act Requirements (Aug. 2008).
TIGTA, Ref. No. 2009-30-115, The Office of Disclosure Continues to Improve Upon Its
Responses to Taxpayers’ Requests Under the Freedom of Information Act (Sept. 2009).
TIGTA, Ref. No. 2010-30-090, The Office of Disclosure Continues to Improve Compliance With
the Freedom of Information Act Requirements (Aug. 2010).
TIGTA, Ref. No. 2011-30-093, The Office of Disclosure Continues to Improve Compliance With
the Freedom of Information Act Requirements (Sept. 2011).
TIGTA, Ref. No. 2012-30-098, Fiscal Year 2012 Statutory Review of Compliance With the
Freedom of Information Act (Aug. 2012).



                                                                                      Page 20
            Fiscal Year 2013 Statutory Review of
        Compliance With the Freedom of Information Act



                                                 Appendix VI

Management’s Response to the Draft Report




                                                         Page 21
    Fiscal Year 2013 Statutory Review of
Compliance With the Freedom of Information Act




                                                 Page 22
    Fiscal Year 2013 Statutory Review of
Compliance With the Freedom of Information Act




                                                 Page 23
    Fiscal Year 2013 Statutory Review of
Compliance With the Freedom of Information Act




                                                 Page 24
